APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fourth Circuit
(December 9, 2020) . . . . . . . . . . . . App. 1
Appendix B Opinion and Order and Judgment in
the United States District Court for
the Western District of Virginia
Abingdon Division
(July 1, 2019) . . . . . . . . . . . . . . . App. 12

App. 1

APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1771
[Filed December 9, 2020]
________________________________
SHELIA HOLMES,
)
)
Plaintiff - Appellant, )
)
v.
)
)
GENERAL DYNAMICS MISSION )
SYSTEMS, INC.,
)
)
Defendant - Appellee. )
________________________________ )
Appeal from the United States District Court
for the Western District of Virginia, at Abingdon.
James P. Jones, District Judge.
(1:18-cv-00019-JPJ-PMS)
Argued: October 29, 2020 Decided: December 9, 2020
Before MOTZ, KEENAN, and FLOYD, Circuit Judges.
Affirmed by unpublished per curiam opinion.

App. 2
ARGUED: Richard F. Hawkins, III, THE HAWKINS
LAW FIRM, PC, Richmond, Virginia, for Appellant.
Michael Joseph Murphy, OGLETREE, DEAKINS,
NASH, SMOAK & STEWART, P.C., Washington, D.C.,
for Appellee. ON BRIEF: John B. Flood, Connie M. Ng,
OGLETREE, DEAKINS, NASH, SMOAK &
STEWART, P.C., Washington, D.C., for Appellee.
Unpublished opinions are not binding precedent in this
Circuit.
PER CURIAM:
Shelia Holmes brought this Americans with
Disabilities Act (“ADA”) action against her former
employer, General Dynamics Mission Systems, Inc.
(“General Dynamics”). The district court granted
summary judgment in favor of General Dynamics,
holding that Holmes did not meet the ADA’s definition
of a “qualified individual” because she could not comply
with a valid safety requirement for her position.
Holmes maintains that the court erred in doing so. She
also challenges the district court’s order striking the
declaration of a potential witness that she had not
identified during discovery. For the reasons that follow,
we affirm the judgment of the district court.
I.
In 1998, Holmes began work for General Dynamics
as a shelter fabricator. Holmes’s job involved the use of
a variety of heavy equipment and machinery. At least
as early as 2003, Holmes became aware that the
company was implementing a requirement that shelter
fabricators wear steel-toed shoes as protection from
accidents involving heavy equipment and machinery.

App. 3
The shelter fabricator job description does not explicitly
include compliance with safety requirements, but
General Dynamics posted the steel-toed shoe
requirement on sign boards throughout the fabrication
and production areas where Holmes worked.
Additionally, the collective bargaining agreement
applicable to Holmes provides that employees may face
disciplinary action if they refuse to cooperate with the
company’s safety precautions.
Holmes, however, suffers from diabetes and
brachymetapodia, a congenital condition characterized
by short or overlapping toes. According to Holmes,
these conditions make it unsafe for her to wear
steel-toed shoes because such inflexible footwear can
cause foot sores or ulcerations that could potentially
threaten her life or lead to amputation. For this
reason, Holmes wore flexible footwear, like tennis
shoes, from the outset of her employment with General
Dynamics. For years, when Holmes presented her
supervisor with a doctor’s note explaining her
conditions, the company allowed Holmes to continue
wearing tennis shoes and told her to keep a copy of her
doctor’s note explaining her condition on hand to show
to supervisors.
In July 2013, however, General Dynamics received
a negative audit finding after an inspector observed an
employee, Arlene Bland, in a production area without
steel-toed shoes. Although this single violation did not
result in any immediate sanction, the company feared
that a repeat violation would endanger its certification
of compliance with at least two widely accepted
international standards (ISO 14001 and OHSAS

App. 4
18001). Additionally, a few years before, an employee
was injured while failing to wear steel-toed safety
shoes.
As part of its corrective actions, the company
concluded that it must enforce the steel-toed shoe
policy and informed supervisors that they would be
held accountable for their subordinates’ compliance
with the policy. A job-safety analysis conducted by an
outside firm in August of 2013 further confirmed the
importance of this policy, concluding that steel-toed
boots constituted personal protective equipment
required for the shelter fabricator position.
But in late 2013, Holmes again presented her
supervisor with a doctor’s note stating that she could
not wear steel-toed shoes. In response, General
Dynamics placed her on a leave of absence.*
During the next two years, a human resources
manager worked extensively with Holmes to find safety
shoes compatible with her disabilities. The company
explored a variety of different shoe options for Holmes,
including custom-made shoes that it would have, at the
very least, heavily subsidized. Holmes rejected each of
these alternatives, submitting several doctors’ notes

*

Holmes’s husband, who also worked for General Dynamics, stated
in his deposition that the company made at least one temporary
exception to the steel-toed shoe policy in order to accommodate
another employee’s disability even after it placed Holmes on leave.
But the record establishes that when the safety manager at the
plant learned of this situation, she immediately responded to
ensure compliance.

App. 5
that consistently maintained that she could not wear
any of those shoe options.
General Dynamics re-reviewed the steel-toed shoe
requirement to determine if it could safely exempt
Holmes from it. The company also explored whether it
had open positions for which Holmes was qualified but
which would not require her to wear steel-toed shoes.
Ultimately, General Dynamics concluded that it could
not safely exempt Holmes from wearing steel-toed
shoes while she was employed as a shelter fabricator,
that the steel-toed shoe requirement was a necessary
safety requirement for that position, and that the
company had no suitable alternative positions
available. The company terminated Holmes’s
employment in 2016.
Holmes then filed this ADA action. After discovery,
General Dynamics moved for summary judgment.
Holmes opposed that motion, attaching to her
opposition a declaration from Bland, the employee
whose noncompliance with the steel-toed shoe policy
resulted in a negative audit finding in 2013. In the
declaration, Bland stated that General Dynamics had
not disciplined her after she violated the steel-toed
shoe policy, that she continued wearing tennis shoes
even after the audit finding, and that she regularly
observed other employees doing the same. The
company moved to strike the declaration because, as
Holmes later conceded, she failed to identify Bland in
her required initial or supplementary discovery
responses as a witness with information supporting her
claim. The court held a hearing on the motion, after
which it struck the declaration.

App. 6
Ultimately, the court granted General Dynamics’s
summary judgment motion, finding Holmes did not
meet the ADA’s definition of a “qualified individual”
because she could not comply with her employer’s valid
safety requirements. Holmes then timely filed this
appeal.
II.
Holmes first challenges the district court’s order
striking Bland’s declaration. We can quickly reject this
argument.
The Federal Rules of Civil Procedure require a
party to identify in its initial disclosures “each
individual likely to have discoverable information —
along with the subjects of that information — that the
disclosing party may use to support its claims or
defenses, unless the use would be solely for
impeachment.” Fed. R. Civ. P. 26(a)(1)(A)(i). If a party
discovers that the original disclosure requires additions
or corrections, the party must supplement its
disclosure. Fed. R. Civ. P. 26(e)(1)(A). The Rules
further provide that “[i]f a party fails to provide
information or identify a witness as required by Rule
26(a) or (e), the party is not allowed to use that
information or witness to supply evidence on a motion,
at a hearing, or at a trial, unless the failure was
substantially justified or is harmless.” Fed. R. Civ. P.
37(c)(1).
As the district court found, Holmes failed to identify
Bland as a potential witness in her initial or
supplementary disclosures. The court concluded that
this failure was neither substantially justified nor

App. 7
harmless. We accord such discretionary decisions great
deference. See Bresler v. Wilmington Tr. Co., 855 F.3d
178, 190 (4th Cir. 2017).
The district court did not abuse that discretion here.
While other witnesses mentioned Bland during their
depositions, all of the discussion about Bland occurred
in connection with the 2013 audit. These references to
Bland did not provide notice to General Dynamics that
Holmes might rely on Bland as a witness to establish
her claims, or what the subject of Bland’s testimony
would be. We have held that a district court’s order
striking a declaration under very similar circumstances
does not constitute error. See Hoyle v. Freightliner,
LLC, 650 F.3d 321, 329–30 (4th Cir. 2011) (affirming
an order striking a declaration from a witness whom
others referenced in deposition testimony but whom
the plaintiff did not disclose until after the defendant
moved for summary judgment). So too here.
III.
We turn to Holmes’s principal contention, that the
district court erred in granting summary judgment to
General Dynamics. The role of the district court at
summary judgment is “to determine whether there is
a genuine issue for trial.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 249 (1986). In making that
determination, “[t]he evidence of the non-movant is to
be believed, and all justifiable inferences are to be
drawn in [her] favor.” Id. at 255 (citation omitted).
Summary judgment is appropriate only when the
movant “is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56.

App. 8
Holmes’s ADA claim turns on a threshold legal
question: whether Holmes is “within the ADA’s
protected class.” Rohan v. Networks Presentations LLC,
375 F.3d 266, 272 (4th Cir. 2004). The ADA protects
“qualified individual[s]” from discrimination on the
basis of disability. 42 U.S.C. § 12112; see Rohan, 375
F.3d at 272. A qualified individual is one “who, with or
without reasonable accommodation, can perform the
essential functions of the employment position that
such individual holds.” 42 U.S.C. § 12111(8).
Holmes’s briefs could be read to suggest that her
entitlement to ADA relief rests solely on whether she
could perform the “essential functions of her job,”
regardless of safety requirements. But at oral
argument, Holmes’s counsel recognized that we must
also consider her employer’s valid safety requirements
when analyzing her claims. Oral Arg. at 10:30–11:43.
This is so because the ADA simply does not
mandate that a safety requirement be a part of the
essential functions of a position for an employer to
enforce it. Rather, as long as the requirement is valid,
any employee who is categorically unable to comply —
as Holmes and her doctors have consistently
maintained that she is — will “not be considered [a]
‘qualified’” individual for ADA purposes. EEOC,
Applying Performance and Conduct Standards to
Employees with Disabilities (Sept. 3, 2008),
https://www.eeoc.gov/laws/guidance/applying-perform
ance-and-conduct-standards-employees-disabilities
(hereinafter “EEOC Guidance”) (“Employers may
require employees to wear certain articles of clothing to
protect themselves, coworkers, or the public.”).

App. 9
As the EEOC has explained, “[i]f an individual with
a disability cannot comply with a dress code,” including
a requirement that employees wear safety equipment,
that individual will not be qualified for ADA purposes.
Id. Because an “employer may still require compliance”
with a valid safety equipment requirement even when
an employee “cannot meet [a] dress code because of a
disability,” id., an employee’s inability to comply with
such a requirement will render that employee
unqualified.
Holmes does not contend that the company’s
steel-toed shoe requirement is not a valid safety
requirement. Nor could she — as the district court
explained, the record is replete with facts justifying the
requirement. The record shows that at least one
employee was injured while failing to wear protective
footwear. An employee injury of this kind could cost the
company production time and lead to increased
workers’ compensation costs.
This distinguishes this case from those in which the
parties disagree as to the validity or necessity of a
safety requirement. Because Holmes does not dispute
the validity of the steel-toed shoe requirement and
because the parties agree that Holmes cannot comply
with it, the district court correctly held that she is not
a “qualified individual” and thus is not entitled to ADA
relief.
Holmes’s principal contrary argument is that she
successfully performed her job for more than a decade
without wearing steel-toed shoes. For purposes of this
appeal we accept this as true, but it does not follow
that she is therefore a qualified individual for ADA

App. 10
purposes. Just because an employee has performed her
job for an extended period of time without injury does
not mean that the employee has performed her job
safely or that she could continue to perform her job
without risking injury to herself or others. A seatbelt is
no less necessary to a driver’s safety because she has
driven without a seatbelt in the past. To hold otherwise
would effectively estop a company from enacting and
enforcing new, necessary, job-related safety
requirements.
Nor does Holmes’s prior work without steel-toed
shoes establish, as her counsel contended at oral
argument, that a total exemption from the steel-toed
shoe requirement constitutes a reasonable
accommodation under the ADA. See Oral Arg. at
10:30–11:43.
Holding an exemption from an
admittedly valid safety requirement represents a
reasonable accommodation simply cannot be squared
with an employer’s right to “require compliance” with
such a requirement even when an employee cannot
meet the requirement because of a disability. See
EEOC Guidance at F., Example 45. If exemptions from
valid safety policies were required as ADA
accommodations, it is unclear under what
circumstances an employer could ever enforce a valid
safety policy.
Holmes’s inability to comply with the steel-toed
shoe requirement thus means that she is not a
“qualified individual” protected by the ADA. The
district court did not err in rejecting her contrary
contentions and granting summary judgment to her
employer.

App. 11
For all of these reasons, the judgment of the district
court is
AFFIRMED.

App. 12

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ABINGDON DIVISION
Case No. 1:18CV00019
[Filed July 1, 2019]
___________________________________
SHELIA HOLMES,
)
)
Plaintiff,
)
)
v.
)
)
GENERAL DYNAMICS MISSION
)
SYSTEMS, INC.,
)
)
Defendant.
)
___________________________________ )
OPINION AND ORDER
By: James P. Jones
United States District Judge
Richard F. Hawkins, III, The Hawkins Law Firm,
PC, Richmond, Virginia, for Plaintiff; John B. Flood,
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.,
Washington, D.C., for Defendant.
In this civil action, plaintiff Shelia Holmes claims
that her former employer failed to reasonably

App. 13
accommodate her disability and terminated her
because of her disability in violation of the Americans
with Disabilities Act (“ADA”), 42 U.S.C.
§§ 12112–12117. The defendant employer has moved
for summary judgment, asserting that Holmes was
unable to perform the essential functions of her job and
that her proposed accommodation was unreasonable.
For the reasons that follow, I
will grant the
defendant’s motion.
I.
The following facts taken from the summary
judgment record are either undisputed or, where
disputed, are stated in the light most favorable to
Holmes, the nonmoving party.
Holmes has a condition called brachymetatarsia,
which means she has several abnormally short and
overlapping toes. She also has diabetes. Wearing
protective footwear causes friction and ulcers on her
feet, which is very dangerous because of the diabetes.
Wearing such shoes also causes her feet to swell and
can create circulation problems, putting her at risk of
requiring amputation. Holmes’s brachymetatarsia and
diabetes interfere with her major life activities of
walking and standing.
Holmes began working for General Dynamics
Ordnance and Tactical Systems, Inc., at its
manufacturing plant in Marion, Virginia, in 1998 and
was employed there for approximately 18 years, mostly

App. 14
as a Shelter Fabricator.1 In that role, Holmes was
exposed to a number of hazards. Shelter Fabricators
work on the production floor around heavy objects that
could fall or roll onto their feet, and there is also some
risk of injury from electrical shocks or sharp objects.
Although she was never injured on the job, Holmes
does not dispute the presence of these hazards or the
fact that they had the potential to severely injure her
feet. The job description for Shelter Fabricator does not
include any mention of wearing protective shoes.
However, a job safety analysis dated August 15, 2013,
states that wearing personal protective equipment,
including protective footwear, is essential to the
position of Shelter Fabricator.
As early as 2003, General Dynamics stated that
employees working on the production floor were
required to wear steel-toed or similar shoes.
Nevertheless, Holmes was allowed to work in tennis
shoes or other loose-fitting shoes for many years. She
had a note from a doctor explaining that her medical
conditions would not allow her to wear protective
shoes, and she would show the note to her supervisor
to be excused from the requirement.
Beginning in 2013, however, General Dynamics
stopped exempting Holmes from the protective
footwear requirement. That year, an outside auditor
1

The parties agreed to substitute General Dynamics Mission
Systems, Inc., as the defendant in this case in light of the fact that
the substituted defendant now operates the business and has
assumed the obligations of the plaintiff’s former employer in this
case. For convenience, I will refer to both the former employer and
the substituted defendant as General Dynamics.

App. 15
found a violation of the protective footwear policy by
employee A.B. The audit finding was significant to the
company because future violations could jeopardize the
company’s certifications and subject the company to
other serious ramifications. As a result, the company
made an effort to ensure full compliance with the
requirement to wear safety shoes.
Holmes obtained another medical note explaining
that her conditions prevented her from wearing safety
shoes, which she showed to the company. She also told
the company that she had seen other employees work
in the same area of the plant without wearing
protective shoes. Holmes tried to comply with the
policy by wearing protective footwear, but whenever
she did so, the shoes caused problems for her feet, so
she removed them. When she saw a human resources
representative coming her way, she would donn them
again in order to appear compliant with the policy.
Human resources representative Brent Theriault
spoke with several outside vendors to obtain safety
shoes and shoe covers. None of the brands or varieties
the company ordered for Holmes were acceptable to
her. In November 2013, after reviewing a note from
Holmes’s doctor indicating that she could not wear
protective foorwear, the company placed Holmes on an
excused absence to allow her to find appropriate safety
shoes, for which it would reimburse her. The company
suggested that perhaps she could have safety shoes
custom-made for her needs, but there is no indication
that Holmes pursued that option.
Another production-area employee, G.A., was for
some period of time excused from wearing steel-toed or

App. 16
similar shoes because he had a hammer toe. G.A. was
eventually required to wear such shoes as well, but not
for some time after the requirement was imposed
against Holmes. When Lisa Greenway, the plant’s
Environmental, Health and Safety Manager, learned
that G.A. was not wearing safety shoes, she informed
G.A. that he was required to wear such shoes and he
assured her that he would do so going forward.
The Collective Bargaining Agreement governing
workers at the Marion, Virginia, General Dynamics
plant generally requires employees to wear safety
equipment. Regulations promulgated by the federal
Occupational Safety and Health Administration
(“OSHA”) typically require employees working around
heavy equipment to wear protective footwear. However,
OSHA has suggested that “non-metallic toes caps” may
be a reasonable alternative to steel-toed shoes for
diabetic employees. Pl.’s Mem. Opp’n Mot. Summ. J.
Ex. N, ECF No. 49-14. General Dynamics ordered
several types and sizes of protective footwear for
Holmes to try, including covers that would fit over her
tennis shoes. Holmes does not suggest that a particular
type of safety footwear exists that would have been
suitable. Rather, she contends that she cannot wear
any safety shoes at all and can only wear tennis shoes
or other loose-fitting shoes.
No one from General Dynamics contacted OSHA
about the protective footwear requirement or
alternatives that might be available. OSHA has stated
in a standard interpretation letter that when safety
equipment exposes an employee to greater hazards, the
employee is not required to use the otherwise required

App. 17
safety equipment. Specifically addressing work boots
and diabetics, OSHA has written that protective
footwear must not cause the employee harm, and the
employer must provide properly fitting protective
footwear.
Holmes was on an excused absence for two years
while the company attempted to locate appropriate
shoes for her. During that time, she and her attorney
sometimes did not respond to their communications in
a timely fashion. Holmes’s primary care physician and
podiatrist both opined that she could not wear
protective shoes.
Eventually, on June 1, 2016, the company
terminated Holmes based on these representations by
her physicians and an inability to find other protective
footwear that Holmes would agree to wear. Holmes was
classified as administratively terminated and was
invited to apply for other positions in the future. The
company at the time did not have any open positions
for which Holmes was qualified that did not require
wearing protective shoes.
II.
Summary judgment is warranted “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a). A fact is
material if its existence or non-existence could result in
a different jury verdict. JKC Holding Co. v. Wash.
Sports Ventures, Inc., 264 F.3d 459, 465 (4th Cir. 2001).
When ruling on a summary judgment motion, the court
should consider the parties’ pleadings, depositions,

App. 18
answers to interrogatories, admissions on file, and
affidavits. Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986).
“[C]ourts may not resolve genuine disputes of fact in
favor of the party seeking summary judgment.” Tolan
v. Cotton, 572 U.S. 650, 656 (2014). “Summary
judgment cannot be granted merely because the court
believes that the movant will prevail if the action is
tried on the merits.” Jacobs v. N.C. Admin. Office of the
Cts., 780 F.3d 562, 568 (4th Cir. 2015) (quoting 10A
Charles Alan Wright et al., Federal Practice &
Procedure § 2728 (3d ed. 1998)). The court may not
assess credibility on a motion for summary judgment.
Id. at 569.
Summary judgment is not a disfavored procedural
shortcut, but an important mechanism for weeding out
claims and defenses that have no factual basis. Celotex,
477 U.S. at 327. It is the affirmative obligation of the
trial judge to prevent factually unsupported claims and
defenses from proceeding to trial. Drewitt v. Pratt, 999
F.2d 774, 778-79 (4th Cir. 1993).
III.
The key question presented in this case is whether
an employer must wholly exempt an employee from a
requirement to wear safety equipment that is intended
to protect her from serious injury, and to protect the
company from financial harm, because she has a
physical condition that prevents her from wearing the
safety equipment. After reviewing the record evidence
and considering the parties’ arguments, I conclude that
the ADA imposes no such requirement on an employer.

App. 19
The ADA protects qualified individuals with
disabilities from discrimination on the basis of their
disabilities. 42 U.S.C. § 12112(a); Rohan v. Networks
Presentations LLC, 375 F.3d 266, 278-29 (4th Cir.
2004). Under the statute, a qualified individual is “an
individual who, with or without reasonable
accommodation, can perform the essential functions of
the employment position that such individual holds or
desires.” 42 U.S.C. § 12111(8). An employer must
“make reasonable accommodations for an applicant or
an employee’s disability.” E.E.O.C. v. Fed. Express
Corp., 513 F.3d 360, 371 (4th Cir. 2008). The applicable
regulations provide:
To determine the appropriate reasonable
accommodation it may be necessary for the
covered entity to initiate an informal, interactive
process with the individual with a disability in
need of the accommodation. This process should
identify the precise limitations resulting from
the disability and potential reasonable
accommodations that could overcome those
limitations.
29 C.F.R. § 1630.2(o)(3). In determining whether a job
function is essential, the Fourth Circuit has instructed
that:
First, the employer’s judgment of the
essential functions must be considered. See 42
U.S.C. § 12111(8). Second, if a written job
description has been prepared ahead of
advertising or interviewing candidates for a
position, that description “shall be considered

App. 20
evidence of the essential functions of the job.”
See id.
Stephenson v. Pfizer, Inc., 641 F. App’x 214, 220 (4th
Cir. 2016) (unpublished).
The regulations provide a non-exhaustive list of
factors to consider in determining whether a job
function is essential:
(i)

The employer’s judgment as to which
functions are essential;

(ii)

Written job descriptions prepared before
advertising or interviewing applicants for
the job;

(iii)

The amount of time spent on the job
performing the function;

(iv)

The consequences of not requiring the
incumbent to perform the function;

(v)

The terms of a collective bargaining
agreement;

(vi)

The work experience of past incumbents
in the job; and/or

(vii)

The current work experience
incumbents in similar jobs.

of

29 C.F.R. § 1630.2(n)(3)(i)–(vii).
Here, General Dynamics contends that Holmes is
not protected under the ADA because she was not a
qualified individual. It argues that wearing protective
footwear was an essential function of Holmes’s job as a

App. 21
Shelter Fabricator, and therefore allowing her to
perform the job while wearing tennis shoes was not a
reasonable accommodation. General Dynamics asserts
that the protective footwear requirement is necessary
to fulfill its legal obligations under 29 C.F.R.
§ 1910.136(a), which mandates that an employer “shall
ensure that each affected employee uses protective
footwear when working in areas where there is a
danger of foot injuries due to falling or rolling objects,
or objects piercing the sole.”
In opposition to the defendant’s motion, Holmes
argues that because the company previously allowed
her and others to work without wearing safety shoes,
wearing such protective footwear was not an essential
function of her job. She further asserts that allowing
her to wear tennis shoes would have been a reasonable
accommodation. At oral argument, her counsel
essentially argued that Holmes should have the right
to accept the risks associated with wearing tennis
shoes in a hazardous manufacturing environment if she
decides that those risks are less severe than the risks
posed to her by wearing protective footwear.
It is undisputed that at least as of 2013, General
Dynamics viewed wearing protective footwear as an
essential function of the Shelter Fabricator position.
The Collective Bargaining Agreement, the outside
auditor’s assessment, and OSHA regulations all
underscore the importance of safety shoes to protect
employees’ feet from falling heavy and sharp objects
and other hazards. Other courts have held that when
an article of clothing is an “essential safety
requirement” and the plaintiff cannot wear that article

App. 22
of clothing because of a disability, that individual is not
qualified for the position. Mattair v. Pilgrim’s Pride
Corp., 3:17-cv-211-J-32PDB, 2019 WL 1383433, at *3
(M.D. Fla. Mar. 27, 2019); see also Lobascio v. Broward
Cty., No. 12-60134-CIV-ZLOCH/ROSENBAUM, 2012
WL 12872587, at *8 (S.D. Fla. Sept. 28, 2012).
No reasonable accommodation existed that would
have allowed Holmes to perform the Shelter Fabricator
job safely, and if she could not perform the essential
functions of the job safely, then she could not perform
the essential functions of the job. An accommodation
that alters the essential functions of the position is not
reasonable. Id., at *7 (“An employer . . . is not required
to revoke its policies which are linked to the essential
performance of the job to grant an individual with a
disability an accommodation.”).
The undisputed facts show that General Dynamics
had legitimate business reasons for requiring Holmes
to wear safety shoes. Exempting her from the
requirement could have jeopardized its certification
and standing with various organizations and agencies.
Moreover, had she suffered a foot injury, the company
may have been subjected to lost production time and
increased workers’ compensation costs. The fact that
company supervisors had previously been lax in
enforcing the protective footwear policy does not
prevent the company from later deciding to tighten
application of its safety rules in response to a negative
audit finding and an assessment that a stricter policy
is necessary to ensure worker safety.
The plaintiff does not dispute that human resources
representative Theriault engaged in an interactive

App. 23
process with her and attempted to find protective
footwear that would meet her needs. She admits that
she cannot wear any kind of such footwear and would
only be able to perform the Shelter Fabricator job if she
were allowed to do so while wearing tennis shoes. I
conclude that wearing tennis shoes in place of safety
shoes is not a reasonable accommodation under the
facts of this case. Because Holmes cannot establish
that she is a qualified individual under the ADA, I
must grant the defendant’s motion.
IV.
For these reasons, it is ORDERED that
Defendant’s Motion for Summary Judgment, ECF No.
43, is GRANTED. A separate judgment in favor of the
defendant will be entered herewith.
ENTER: July 1, 2019
/s/ James P. Jones
United States District Judge

App. 24
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ABINGDON DIVISION
Case No. 1:18CV00019
[Filed July 1, 2019]
___________________________________
SHELIA HOLMES,
)
)
Plaintiff,
)
)
v.
)
)
GENERAL DYNAMICS MISSION
)
SYSTEMS, INC.,
)
)
Defendant.
)
___________________________________ )
JUDGMENT
By: James P. Jones
United States District Judge
A Motion for Summary Judgment having been
granted, it is ADJUDGED AND ORDERED that
final judgment on the merits is entered in favor of the
defendant.
The clerk is directed to close the case.
ENTER: July 1, 2019
/s/ James P. Jones
United States District Judge

